AoD&.K\AjiCj£5.

TV o \s\diA. dF AW U\\5\-WA'2)V'ft-Ws CouifcV oF Fp^WW A. \
OfW&. oF AW UmWASAibA&s CdukT dF FpijteftlsTTejuyuOQ
\\^Cj V- Ct' L* Is

if is

V

&

t

*S s s l' U

» t

S J/liC usL

ir-

V>--' f*

t-

l U«c

feWes. oV AW iMvAeASAiaWs TWAuW-V C-CsU’sA

Lie *£.4^v.

Vltk U Ull U-UL.a

.a.
A.3

^ '

yf

®iutei) States Court of appeals
for tlje jfiftf) Circuit

United States Court of Appeals
Fifth Circuit

FILED
April 1, 2021

No. 19-31019

Lyle W. Cayce
Clerk

Earton Smith,
Plaintiff—Appellant,
versus
John Schuyler Marvin
Defendant—Appellee.

Appeal from the United States District Court
for the Western District of Louisiana
USDC No. 5:19-CV-1053

Before Ho, Oldham, and Wilson, Circuit Judges.
Per Curiam:*
Louisiana prisoner Earton Smith sued District Attorney John
Schuyler Marvin under 42 U.S.C. § 1983 for due process violations related
to Smith’s application for state habeas relief. The district court dismissed the
suit for lack of jurisdiction. We affirm.

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

iLiA. 1

No. 19-31019

I.
A Louisiana jury convicted Smith of aggravated burglary in 2007
following an incident that occurred in 2006. State v.sLith, 47 So.3d 553,554
(La. Ct. App. 2010). Smith was initially sentenced to thirty years in prison.
Id. Then the State adjudicated him a habitual offender, and Smith received a
new sentence of life in prison without possibility of parole. Id. His attempts
to obtain state and federal habeas relief in 2011 and 2012 were unsuccessful.
In 2017, Smith filed another application for state habeas relief. He
claimed he had discovered two affidavits from a police officer involved in the
2006 arrest that contradicted testimony given at trial. District Attorney
Marvin filed procedural objections contending that Smith’s application was
successive and barred by Louisiana’s two-year limitations period for
postconviction relief. See La. Code Crim. Proc. arts. 930.4, 930.8.
Smith responded that the limitations period did not apply because he based
his claim on facts in the affidavits not known to him or his attorney at trial.
See id. art. 930.8A(1). Marvin disagreed and asserted that Smith had received
the affidavits during the state-court litigation. The trial court rejected
Smith’s application as successive and untimely. The state appellate court and
the Louisiana Supreme Court declined to overturn the trial court’s ruling.
Smith filed this § 1983 action against Marvin a few months later.
Proceeding pro se, Smith alleged that Marvin had deprived him of due
process by “using... state procedures] to deny [him] postconviction relief. ”
Smith faulted Marvin for objecting to his application and ignoring the “ new
facts exception” to the limitations period, which Smith thought applicable.
But Smith also claimed he “d[id] not challenge the prosecutor’s conduct or
the LouisianaQ state court’s decision.” Instead, he “asserted] that he
challenges Louisiana’s postconviction exceptions to the [limitations] period
. . . as construed by the Louisiana courts.” Smith sought an injunction

No. 19-31019

ordering Marvin “to conduct an evidentiary hearing... at which [the] district
court will determine ” whether an exception to the limitations period appliles.
A magistrate judge reviewed Smith’s complaint and recommended
dismissing it for lack of jurisdiction. The magistrate judge reasoned that
though Smith purported to challenge the constitutionality of the state
limitations statute itself, he “actually s[ought] a writ of mandamus to order
[Marvin] to conduct evidentiary hearings regarding his application for post­
conviction relief.” It concluded that such a request was barred by the
principle that district courts “lack[] jurisdiction to issue a writ of mand amus
to compel [state officials] to perform an alleged duty. ”
The district court agreed with the magistrate judge and dismissed
Smith’s suit for lack of jurisdiction. Smith timely appealed. Our review is de
novo. Lefebure v. D’Aquilla, 987 F.3d 446,448 (5th Cir. 2021).
II.
We have held that “a federal court lacks the general power to issue
writs of mandamus to direct state •. . . officers in the performance of their
duties where mandamus is the only relief sought.” Moye v. Clerk, Dekalb
Cnty. Superior Ct., 474 F.2d 1275,1276 (5th Cir. 1973) (per curiam). And we
recently applied this principle to a prisoner like Smith who alleged that state
officials “violated his right to due process in relation to his state habeas
applications.” See Thoele v. Hamlin, 747 F. App’x 242, 242 (5th Cir. 2019)
(per curiam) (applying Moye).
Smith contends the Moye principle does not apply because his
complaint only “challenges] Louisiana’s postconviction statute” and “does
not challenge the conduct of the defendant[] or the decisions of the Louisiana
state courts ” in administering state law. The magistrate judge and the district
court understandably rejected that contention. A central theme in Smith’s
complaint is that Marvin and the state court misapplied state law. And the

No. 19-31019

injunctive relief he sought was an evidentiary hearing conducted “pursuant
to” a state statute. But see Pennhurst State Sch. & Hosp. v. Halderman, 465
U.S. 89, 106 (1984) (holding state sovereign immunity prohibits federal
courts from ordering state officials to comply with state law). Nevertheless,
we assume for the sake of argument that Smith’s complaint directly
challenges Louisiana’s postconviction regime. Cf Carlucci v. Chapa, 884
F.3d 534,538 (5th Cir. 2018) (“If a complaint is written pro se, we are to give
it a liberal construction.”).
That assumption does not get him far. Smith’s theory is that his
complaint cannot have a jurisdictional defect because it resembles the
complaint upheld in Skinner v. Switzer, 562 U.S. 521 (2011). The plaintiff in
Skinner sued a district attorney seeking access to postconviction DNA testing
that a state statute did not permit. Id. at 527-29. The district attorney
interpreted Skinner’s complaint to seek federal review of a state-court
decision in contravention of the Rooker-Feldman doctrine. Id. at 531-32. But
Skinner’s counsel clarified that the “gist of [his] due process claim” was not
a “challenge [to] the prosecutor’s conduct or the decisions reached by the
[state court].” Id. at 530. Skinner instead challenged the “postconviction
DNA statute” itself. Id. In light of that clarification, the Supreme Court held
that “[t]here was ... no lack of subject-matter jurisdiction over Skinner’s
federal suit. ” Id. at 533.
Skinner’s jurisdictional holding does not control this case. While it
remains true that a federal plaintiff can generally challenge “a statute or rule
governing [a state-court] decision,” id. at 532, he still must have Article III
standing to do so, see Lujan v. Defs. of Wildlife, 504 U.S. 555,559-60 (1992).
Standing was not a problem in Skinner because the plaintiff sought relief
against a defendant who caused an injury that a court could redress: Skinner
wanted DNA tests for certain evidence, the district attorney refused to
surrender that evidence, and a court could order her to surrender it. See 562

4

i

No. 19-31019

U.S. at 529; Lujan, 504 U.S. at 560-61. But in this case, Smith alleges an
injury that District Attorney Marvin did not cause and the court cannot
redress. If Smith’s claim is that state law permitted him to file his habeas
application, the erroneous ruling came from the state judge and not from
Marvin. Any injury is therefore “the result of the independent action of some
third party not before the court. ” Lujan, 504 U.S. at 560 (quotation omitted).
And if Smith’s claim is that state law unconstitutionally prohibited him from
filing his habeas application, there is nothing we could order Marvin to do
that would change Smith’s ability to file it. It is therefore impossible for
Smith’s injury to “be redressed by a favorable decision. ” Id. at 561 (quotation
omitted).
AFFIRMED.

5

Case: 19-31019

Document: 00515837774

Page: 2

Date Filed: 04/27/2021

No. 19-31019

( )

Treating the Petition for Rehearing En Banc as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. The court
having been polled at the request of one of the members of the court
and a majority of the judges who are in regular active service and not
disqualified not having voted in favor (Fed. R. App. P. and 5th
Cir. R. 35), the Petition for Rehearing En Banc is DENIED.

2

UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF LOUISIANA
SHREVEPORT DIVISION
EARTON SMTIH

CIVIL ACTION NO. 19-1053-P

VERSUS

JUDGE FOOTE

JOHN SCHUYLER MARVIN

MAGISTRATE JUDGE HORNSBY

REPORT AND RECOMMENDATION
In accordance with the standing order of this court, this matter was referred to the
undersigned Magistrate Judge for review, report, and recommendation.
STATEMENT OF CLAIM
Before the court is a civil action filed in forma pauperis by pro se plaintiff Earton
Smith, ("Plaintiff'), pursuant to 42 U.S.C. § 1983. This complaint was received and filed
in this court on August 5 ,2019. Plaintiff is incarcerated in the Louisiana State Penitentiary
in Angola, Louisiana. He names District Attorney John Schuyler Marvin (“Marvin”) as
defendant.
Plaintiff claims that on November 29, 2007, he was convicted of aggravated
burglary and possession of a firearm by a convicted felon. He claims that on November
20, 2008, the State filed a habitual offender bill against him. Plaintiff claims that on July
21,2009, he was adjudicated a third felony offender. He claims that on November 6,2009,
his original sentence was vacated, and he was sentenced to a-mandatory life sentence at
hard labor.

’

EAiUV, A. 3
J

\]
Plaintiff claims Marvin denied him due process during the post-conviction relief
process. Plaintiff claims that on July 26, 2017, he filed an application for post-conviction
relief pursuant to La. C.Cr.P. art. 930.8(A)(1). He claims his application was predicated
on a fact not known to him or his attorney at trial and therefore was an exception to the
prescriptive period.
Plaintiff claims that on September 25, 2017, Marvin filed procedural objections in
response to his application for post-conviction relief. Pie claims Marvin argued that his
application failed to comply with the requirements provided in La. C.Cr.P. art. 930.3 and
that the two affidavits dated July 29, 2006 by Officer John Morton were provided to him
in the State’s discovery response in state court.
He claims that on October 23, 2017, the trial court denied his application as
repetitive and untimely. Plaintiff claims that on April 5, 2018, the Louisiana Second
Circuit Court of Appeals denied his application for writ of review. He claims that on March
25, 2019, the Supreme Court of Louisiana denied his application for writ of review.
Plaintiff claims that he does not challenge the conduct of the prosecutor or the
decisions of the Louisiana state courts. He claims he is challenging Louisiana’s post­
conviction exceptions to the time period set forth in La. C.Cr.P. art 930.8(A)(1). as
construed by the Louisiana state courts.
Accordingly, Plaintiff seeks injunctive relief ordering Defendant to conduct
evidentiary hearings to determine if the .two affidavits dated July 29, 2006 and the Boss.ier
City Police Department case file rest on facts not known to him and his attorney and any
other relief to which he is entitled
Page 2 of!
\

LAW AND ANALYSIS
Plaintiff filed his complaint as one pursuant to 42 U.S.C. § 1983. However, he
actually seeks a writ of mandamus to order Defendant to conduct evidentiary hearings
regarding his application for post-conviction relief. Mandamus relief is available "to
compel an officer or employee of the United States or any agency thereof to perform a duty
owed to the plaintiff." 28 U.S.C. § 1361. However, it is well settled that federal courts
have no general power to compel action by state officials. See Davis v. Lansing, 851 F.2d
72, 74 (2d Cir. 1988); Van Sickle v. Holloway, 791 F.2d 1431, 1436 n.5 (10th Cir. 1986);
Russell v. Knight. 488 F.2d 96, 97 (5th Cir. 1973); Haggard v. State of Tennessee. 421 F.
2d 1384, 1386 (6th Cir. 1970). Because Defendant is not a federal officer, employee or
agency, this court lacks jurisdiction to issue a writ of mandamus to compel them to perform
an alleged duty. See 28 U.S.C. § 1361.
Accordingly,
IT IS RECOMMENDED that Plaintiffs action be DISMISSED WITHOUT
PREJUDICE for lack of jurisdiction.
OBJECTIONS
Under the provisions of 28 U.S.C. § 636(b)(1)(C) and Fed. R. Civ. P. 72(b), parties
aggrieved by this recommendation have fourteen (14) days from service of this Report and
Recommendation to file specific, written objections with the Clerk _of Court, unless an
extension of time is granted under Fed. R. Civ. P. 6(b). A party may respond to another
party’s objections within fourteen (14) days after being served with a copy thereof.
Page 3 of 4

Counsel are directed to furnish a courtesy copy of any objections or responses to the
District Judge at the time of filing.
A party’s failure to file written objections to the proposed findings, conclusions and
recommendation set forth above, within fourteen (14) days after being served with a copy
shall bar that party, except upon grounds of plain error, from attacking on appeal the
proposed factual findings and legal conclusions that were accepted by the district court and
to which the aforementioned party did not object. See Douglas v. U.S.A.A., 79 F.3d 1415
(5th Cir. 1996) (en banc).
THUS DONE AND SIGNED, in chambers, in Shreveport, Louisiana, this 22nd
day of August 2019.

Mark L. Hornsby
U.S. Magistrate Judge

Page 4 of 4

Case: 19-31019

Document: 00515837774

Page: 1

Date Filed: 04/27/2021

Mntteb States Court ot Appeals
for tfje Jftftf) Circuit
No. 19-31019

Earton Smith,
Plaintiff—Appellant,
versus
John Schuyler Marvin,
Defendant—Appellee.

Appeal from the United States District Court
for the Western District of Louisiana
USDC No. 5:19-CV-1053

ON PETITION FOR REHEARING EN BANC
(Opinion 4/1/21,5 CiR.,

F.3d

Before Ho, Oldham, and Wilson, Circuit Judges.
Per Curiam:
(X ) Treating the Petition for Rehearing En Banc as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. No
member of the panel nor judge in regular active service of the court
having requested that the court be polled on Rehearing En Banc
(Fed. R. App. P. and 5th Cir. R. 35), the Petition for Rehearing
En Banc is DENIED.

tjchiVtV. A* oL

